CERTIFICATE OF SERVICE
NO. TBD
SE Property Holdings, LLC, as Successor by Merger to Vision Bank
Petitioner,
v.
Jerry D. Gaddy
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the SE
PROPERTY HOLDINGS, LLC PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct
copies of the same by Fedex 2-Day, prepaid for delivery to the following address.
Lee Benton
Benton, Centeno & Morris, LLP
2019 Third Avenue North,
Birmingham, AL 35203
(205) 278-8000
lbenton@bcattys.com
Counsel for Jerry D. Gaddy

Lucas DeDeus

January 29, 2021
SCP Tracking: Gaal-P.O. Box 350-Cover White

